TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Report on Labor Cost Charging and
                                    Allocation



                                         September 2005

                             Reference Number: 2005-1C-113




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Web Site          | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          September 9, 2005


 MEMORANDUM FOR DAVID A. GRANT
                DIRECTOR OF PROCUREMENT
                INTERNAL REVENUE SERVICE



 FROM:                       Daniel R. Devlin
                             Assistant Inspector General for Audit (Headquarters Operations
                             and Exempt Organizations Programs)

 SUBJECT:                    Report on Labor Cost Charging and Allocation
                             (Audit # 20051C0223)

 The Defense Contract Audit Agency (DCAA) performed physical observations (floor checks) to
 determine whether employees were actually at work, they were performing in their assigned job
 classifications, and their time was charged to the appropriate jobs. The floor checks also
 included determining whether the contractor consistently complies with established timekeeping
 system policies and procedures for recording labor charges. The floor checks were conducted
 during August 2004, with follow-up interviews conducted in November 2004 for August 2004
 time charges.

 Synopsis
 The DCAA believes certain contractor labor practices require corrective action to improve the
 reliability of the contractor’s labor accounting system. The DCAA examination noted a
 deficiency that is consistent with the deficiency in the labor system review in Fiscal Year 2002
 and in the follow-up review performed in Fiscal Year 2004. The DCAA stated this deficiency
 continues to support the DCAA’s opinion of inadequate in part for the contractor’s labor system.
 The DCAA also stated that, although the contractor has implemented changes that would
 improve the system, the same deficiency is recurring. The DCAA indicated management needs
 to respond with a serious plan to change the attitudes on indirect labor charging for direct
 employees. There seems to be a perceived emphasis for employees to charge direct time.
 According to the DCAA, this deficiency could adversely affect the organization’s ability to
                           Report on Labor Cost Charging and Allocation




record, process, summarize, and report incurred labor costs consistent with applicable Federal
Government contract laws and regulations.
This DCAA report is limited to the cited deficiency. Accordingly, the DCAA expresses no
opinion on the adequacy of the contractor’s labor accounting system taken as a whole.
The information in this report should not be used for purposes other than those intended without
prior consultation with the Treasury Inspector General for Tax Administration regarding their
applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright, Director, at
(202) 927-7077.


Attachment




                                                                                                   2
                                       NOTICE:
The Office of Inspector General for Tax Administration has no objection to the release of this
report, at the discretion of the contracting officer, to duly authorized representatives of the
contractor.
The contractor information contained in this report is proprietary information. The restrictions of
18 U.S.C. § 1905 must be followed in releasing any information to the public.
This report may not be released without the approval of this office, except to an agency
requesting the report for use in negotiating or administering a contract with the contractor.
